         DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Office of Inspector General



                                                                                    Washington, D.C. 20201




                                       OCT - 2 2009

TO:            David Hansell
               Acting Assistant Secretary
                for Children and Families


FROM: 	        Daniel R. Levinson   ~             t ~
               Inspector General


SUBJECT: 	 Review of California's Title IV-E Claims for Payments Made by Los Angeles
           County to Foster Homes of Relative Caregivers (A-09-06-00023)


Attached is an advance copy of our final report on California's Title IV -E claims for payments
made by Los Angles County to foster homes ofrelative caregivers (relative homes). We will
issue this report to the California Department of Social Services (the State agency) within
5 business days. The Administration for Families and Children (ACF) requested that we review
the State agency's Title IV-E claims for payments that the Los Angeles County Department of
Children and Family Services (the county agency) made to relative homes for the period
October 1,2000, through November 30, 2001.

The ACF final rule of January 25, 2000, amended the definition of "foster family home" in Federal
regulations to require States to apply the same licensing standards to all foster family homes that
receive Title IV-E funding, including relative homes. States were allowed 6 months, beginning
March 27,2000, to approve relative homes based on State licensing standards. As of September 28,
2000, payments to relative homes that had not been approved based on those standards could not be
claimed for Federal reimbursement.

California's approved State plan required that the licensing standards for foster family homes be
applied to all foster family homes receiving Title IV-E funds. Although California regulations
contained detailed licensing standards for ensuring the safety of children in foster family homes,
the regulations exempted relative homes from the standards. ACF disallowed approximately
$45 million of California's payments to relative homes for 2002. In 2005, the Departmental
Appeals Board upheld the majority of ACF's disallowance.

Our objective was to determine whether the State agency claimed Federal reimbursement for
county agency payments only to those relative homes that had been approved based on State
licensing standards.

For the period October 1,2000, through November 30, 2001, the State agency improperly
claimed Federal reimbursement for county agency payments to relative homes that had not been
Page 2 – David Hansell


approved based on State licensing standards. Specifically, for 87 of the 100 relative homes in
our sample, the case files showed that the county agency had not used State licensing standards
in its approval process. For the remaining 13 relative homes, the case file documentation was
either missing or substantially incomplete. As a result, there was no assurance that these homes
had been approved based on State licensing standards.

These deficiencies occurred because the State agency disagreed that the licensing standards used
for nonrelative homes were required to be used for relative homes and had not instructed the
county agency to discontinue claiming payments as of September 28, 2000, for approved relative
homes to which those standards had not been applied. For the 100 sampled relative homes, the
State agency improperly claimed $1,268,450 ($650,324 Federal share) in Title IV-E foster care
maintenance payments. Based on our sample results, we estimated that the State agency
improperly claimed a total of $88,787,673 ($45,520,603 Federal share) for county agency
payments to relative homes

We recommend that the State agency refund to the Federal Government $45,520,603 in
unallowable foster care payments to relative homes.

In its comments on our draft report, the State agency said that it did not believe that any
payments were made in error and that any process concerns that resulted in a lack of
documentation had been corrected. The State agency did not provide any information that would
cause us to change our finding or recommendation.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov or Lori A. Ahlstrand, Regional Inspector General for Audit Services,
Region IX, at (415) 437-8360 or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to
report number A-09-06-00023.


Attachment
    DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of Inspector General


                                                                                  Region IX
                                                                                  Office of Audit Services
                                                                                  90 - ih Street, Suite 3-650
                                                                                  San Francisco, CA 94103

                                        OCT - 8 2009

Report Number: A-09-06-00023

Mr. John A. Wagner
Director
California Department of Social Services
744 P Street
Sacramento, California 95814

Dear Mr. Wagner:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of California's Title IV-E Claims for Payments
Made by Los Angeles County to Foster Homes of Relative Caregivers." We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(415) 437-8360, or contact James Kenny, Audit Manager, at (415) 437-8370 or through email at
James.Kenny@oig.hhs.gov. Please refer to report number A-09-06-00023 in all correspondence.

                                               Sincerely,


                                        0<'­   Lori A. Ahlstrand
                                               Regional Inspector General
                                                for Audit Services


Enclosure
Page 2 – Mr. John A. Wagner


Direct Reply to HHS Action Official:

Ms. Pat Colonnese
Region IX Grants Officer
Administration for Children and Families, Region IX
U.S. Department of Health and Human Services
90 Seventh Street, Ninth Floor
San Francisco, California 94103
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF CALIFORNIA’S
    TITLE IV-E CLAIMS FOR
     PAYMENTS MADE BY
   LOS ANGELES COUNTY TO
  FOSTER HOMES OF RELATIVE
         CAREGIVERS




                    Daniel R. Levinson
                     Inspector General

                      October 2009
                      A-09-06-00023
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title IV-E of the Social Security Act (the Act), as amended, authorizes Federal funding for State
foster care programs. The Administration for Children and Families (ACF) final rule of
January 25, 2000, amended the definition of “foster family home” in Federal regulations to
require States to apply the same licensing standards to all foster family homes that receive Title
IV-E funding, including the homes of caregivers who are relatives of the children (relative
homes). States were allowed 6 months, beginning March 27, 2000, to approve relative homes
based on State licensing standards. As of September 28, 2000, payments to relative homes that
had not been approved based on those standards could not be claimed for Federal
reimbursement.

In California, the Department of Social Services (the State agency) supervises the county welfare
departments that administer the Title IV-E Foster Care program. The Title IV-E State plan,
which ACF approved effective October 1, 1998, required that the licensing standards for foster
family homes be applied to all foster family homes receiving Title IV-E funds. Although
California regulations contained detailed licensing standards for ensuring the safety of children
in foster family homes, the regulations exempted relative homes from the standards.

In 1999, ACF began expressing concern that relative homes in California had been approved
based on different standards than those used for licensed homes in which the caregivers were not
relatives (nonrelative homes). ACF subsequently disallowed approximately $45 million of
California’s payments to relative homes for 2002. In 2005, the Departmental Appeals Board
(DAB) upheld the majority of ACF’s disallowance.

ACF requested that we review the State agency’s Title IV-E claims for payments that the Los
Angeles County Department of Children and Family Services (the county agency) made to
relative homes for the period October 1, 2000, through November 30, 2001. For that period, the
State agency claimed $104,441,698 for the county agency’s payments to approved relative
homes.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal reimbursement for
county agency payments only to those relative homes that had been approved based on State
licensing standards.

SUMMARY OF FINDING

For the period October 1, 2000, through November 30, 2001, the State agency improperly
claimed Federal reimbursement for county agency payments to relative homes that had not been
approved based on State licensing standards. Specifically, for 87 of the 100 relative homes in
our sample, the case files showed that the county agency had not used State licensing standards
in its approval process. For the remaining 13 relative homes, the case file documentation was



                                                 i
either missing or substantially incomplete. As a result, there was no assurance that these homes
had been approved based on State licensing standards.

These deficiencies occurred because the State agency disagreed that the licensing standards used
for nonrelative homes were required to be used for relative homes and had not instructed the
county agency to discontinue claiming payments as of September 28, 2000, for approved relative
homes to which those standards had not been applied. For the 100 sampled relative homes, the
State agency improperly claimed $1,268,450 ($650,324 Federal share) in Title IV-E foster care
maintenance payments. Based on our sample results, we estimated that the State agency
improperly claimed a total of $88,787,673 ($45,520,603 Federal share) for county agency
payments to relative homes.

RECOMMENDATION

We recommend that the State agency refund to the Federal Government $45,520,603 in
unallowable foster care payments to relative homes.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency said that it did not believe that any
payments were made in error and that any process concerns that resulted in a lack of
documentation had been corrected. The State agency also commented that its process for
obtaining fingerprint clearances, though not identical to criminal record checks, was substantially
in compliance with Federal laws. Finally, the State agency commented that the recommended
refund was unnecessary from both a policy and fiscal perspective and should be waived. The
State agency’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

During the audit period, the State agency did not comply with Federal law requiring it to apply
the same licensing standards to all foster family homes that receive Title IV-E funding, including
relative homes. The DAB’s 2005 decision made it clear that the Act requires States to apply the
same licensing standards to all foster family homes. Even if we had been able to verify that
criminal record checks of relative caregivers took place, the State agency did not apply to
relative homes numerous other California licensing standards, such as those related to sleeping
arrangements. Homes approved based on other standards do not meet the statutory definition of
a “foster family home” and are not eligible for Federal funding. With respect to the State
agency’s requested waiver, we do not have legal authority to waive the refund of unallowable
payments.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                            Page

INTRODUCTION ......................................................................................................................... 1

     BACKGROUND....................................................................................................................... 1
       Title IV-E Foster Care Program .......................................................................................... 1
       California Licensing Standards for Foster Family Homes .................................................. 1
       Administration for Children and Families Actions ............................................................. 2
       Administration for Children and Families Request............................................................. 2

     OBJECTIVE, SCOPE, AND METHODOLOGY.....................................................................3
       Objective.............................................................................................................................. 3
       Scope ................................................................................................................................... 3
       Methodology........................................................................................................................ 3

FINDING AND RECOMMENDATION .................................................................................... 5

     FEDERAL REQUIREMENTS .................................................................................................5

     CALIFORNIA LICENSING STANDARDS NOT APPLIED TO RELATIVE HOMES ....... 6

     UNALLOWABLE PAYMENTS CLAIMED FOR RELATIVE HOMES ..............................7

     RECOMMENDATION.............................................................................................................7

     STATE AGENCY COMMENTS .............................................................................................7

     OFFICE OF INSPECTOR GENERAL RESPONSE................................................................ 7

APPENDIXES

     A – SAMPLE DESIGN AND METHODOLOGY

     B – SAMPLE RESULTS AND ESTIMATES

     C – STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Title IV-E Foster Care Program

Title IV-E of the Social Security Act (the Act), as amended, authorizes Federal funding for
States to provide foster care for children under an approved State plan. Within the U.S.
Department of Health and Human Services, the Administration for Children and Families (ACF)
administers the Title IV-E Foster Care program. In California, the Department of Social
Services (the State agency) supervises the 58 county welfare departments that administer the
program. For the period October 1, 2000, through November 30, 2001, California’s Federal
reimbursement rate for the program ranged from 51.25 percent to 51.40 percent.

The Adoption and Safe Families Act of 1997, P.L. No. 105-89, amended the Act to strengthen
the child welfare system’s response to children’s need for safety and permanency. Section
471(a)(10) of the Act (42 U.S.C. § 671(a)(10)) provides that standards for foster family homes
“shall be applied by the State to any foster family home or child care institution receiving funds
under this part . . . .” (Emphasis added.) Section 472(c) of the Act (42 U.S.C. § 672(c)) defines
a “foster family home” as “a foster family home for children which is licensed by the State in
which it is situated or has been approved, by the agency of such State having responsibility for
licensing homes of this type, as meeting the standards established for such licensing.”

Based on the plain language of these provisions, ACF’s longstanding interpretation of these
provisions, and the emphasis in the Adoption and Safe Families Act on child safety, ACF’s final
rule of January 25, 2000 (65 Fed. Reg. 4020) amended the definition of “foster family home” at
45 CFR § 1355.20(a). The amended definition requires States to apply the same licensing
standards to all foster family homes that receive Title IV-E funding, including the homes of
caregivers who are relatives of the children (relative homes). States were allowed 6 months,
beginning March 27, 2000, to approve relative homes based on the State licensing standards for
foster family homes. As of September 28, 2000, payments to relative homes that had not been
approved based on those standards could not be claimed for Federal reimbursement.

California Licensing Standards for Foster Family Homes

The California Health and Safety Code (HSC) contains provisions to ensure that community care
facilities, including foster family homes, are safe and sanitary. HSC § 1530 requires the State
agency to adopt standards for foster family homes. The licensing standards that the State agency
adopted were contained in the California Code of Regulations (CCR), Title 22, Division 6,
chapter 7.5. The CCR licensing standards included requirements for the physical environment of
the homes, California Department of Justice and Federal Bureau of Investigation (FBI) criminal
background checks and clearances for all adults in the homes, and initial onsite inspections and
periodic reassessments of the homes. The Title IV-E State plan, which ACF approved effective
October 1, 1998, required that these licensing standards be applied to any foster family home
receiving Title IV-E funds. However, HSC § 1505(k) and CCR § 87007(a)(10) exempted
relative homes from the standards.



                                                 1
Administration for Children and Families Actions

Prior to the 2000 final rule, ACF published a notice of proposed rulemaking in 1998 clarifying
that the Act makes no distinction between approved and licensed foster homes and that a two-
tiered system for approving relative and nonrelative homes was incorrect (63 Fed. Reg. 50058
(Sept. 18, 1998)). In 1999, ACF began expressing concern that relative homes in California had
been approved based on different standards than those used for licensed homes in which the
caregivers were not relatives (nonrelative homes). The State agency maintained that California
was in substantial compliance with the Act and disagreed with ACF that it should discontinue
claiming Federal reimbursement for relative homes or adjust its foster care claims.

In an April 24, 2001, letter to the State agency, ACF reiterated the requirement of the
January 25, 2000, final rule by stating: “[P]lease note that homes that are not approved as
meeting the State’s licensing standards (whatever standards are in effect) would be, and have
been as of September 28, 2000, ineligible for [Federal reimbursement].” The letter also stated:
“Please ensure that the State’s [claims] do not reflect foster care payments made to homes that
are not licensed or approved as meeting the license requirements as of September 28, 2000.”

To address California’s failure to apply State licensing standards to relative homes, ACF
deferred a portion of California’s claims for 2002 pending documentation from the State agency
demonstrating that the claims for relative homes were allowable. ACF subsequently disallowed
approximately $45 million of the payments to relative homes for 2002. California appealed the
disallowance. The Departmental Appeals Board (DAB) upheld the majority of ACF’s
disallowance in California Department of Social Services, DAB No. 1959 (2005). The DAB
stated:

        The regulation [45 CFR § 1355.20(a)] codifies ACF’s longstanding interpretation
        of section 472(c), an interpretation that has been reflected in several Board
        decisions over the years. . . . The regulation sets forth a facially valid
        interpretation of the statutory language of section 472(c) of the Act, which
        specifically provides that “approved” but non-licensed foster family homes must
        be determined “as meeting the standards established for . . . licensing” . . . (and
        consequently, homes that are approved based on other standards do not meet the
        statutory definition of a “foster family home”).

Administration for Children and Families Request

ACF requested that we review the State agency’s Title IV-E claims for payments that the
Los Angeles County Department of Children and Family Services (the county agency) made to
relative homes for the period October 1, 2000, through November 30, 2001. 1 For that period,


1
 The audit period was based on the requirement of ACF’s final rule that relative homes be approved as meeting State
licensing standards by September 28, 2000, and on ACF’s disallowance, which applied to payments claimed
beginning in January 2002. Because the county agency payments in December 2001 were claimed in January 2002
and would have been included in ACF’s disallowance, our audit included payments to relative homes only for the
months of October 2000 through November 2001.


                                                        2
Los Angeles County had the most relative home placements of any county in California,
accounting for more than 40 percent of the statewide total.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal reimbursement for
county agency payments only to those relative homes that had been approved based on State
licensing standards.

Scope

The State agency initially claimed $104,441,698 2 for Title IV-E foster care maintenance
payments that the county agency made to 11,931 approved relative homes for the period
October 1, 2000, through November 30, 2001. 3 This amount did not include payments to
out-of-State relative homes or to in-State relative homes that received only clothing allowance
payments. We reviewed a sample of 100 of the 11,931 relative homes.

We limited our review of internal controls to obtaining a general understanding of the controls
related to the county agency’s approval of relative homes, the county agency’s submission of
claims to the State agency for Title IV-E foster care maintenance payments to relative homes,
and the State agency’s claims for Federal reimbursement of payments to relative homes.

We conducted fieldwork at the State agency in Sacramento, California, and at various county
agency locations in Los Angeles, California.

Methodology

To accomplish our objective, we:

        reviewed Federal and State laws, regulations, and other requirements related to Title IV-E
         foster family homes;

        reviewed correspondence between the State agency and ACF related to relative homes;

        interviewed State agency personnel about the standards used to approve relative homes
         and to license nonrelative homes;

        interviewed county agency personnel about the approval process for relative homes;

2
 This amount represented payments made by the county agency to relative homes and did not include the county
agency’s later adjustments. These adjustments reclassified certain payments from Federal to non-Federal funding
sources and were reflected in subsequent claims by the State agency.
3
 Section 475(4)(A) of the Act (42 U.S.C. § 675(4)(A)) defines a “foster care maintenance payment” as one that
covers the costs of such things as “food, clothing, shelter, daily supervision, school supplies, a child’s personal
incidentals, liability insurance with respect to a child, and reasonable travel to the child’s home for visitation.”


                                                            3
      reviewed county agency standards used to approve relative homes and compared the
       standards with California foster family home licensing standards;

      reconciled the county agency’s monthly foster care claims to the State agency’s quarterly
       claims submitted to ACF for Federal reimbursement;

      obtained an understanding of the data on relative home placements in the county
       agency’s Child Welfare Services/Case Management System;

      obtained an understanding of the payment data in the county agency’s Automated
       Provider Payments System;

      obtained a data file from the county agency that identified all of the relative home
       placements for our audit period;

      obtained a data file from the county agency that identified all of the monthly payments
       made for our audit period for the relative home placements that the county agency had
       identified;

      compiled the placement and payment data to identify the relative homes that received one
       or more Title IV-E foster care maintenance payments for the audit period;

      on a limited basis, matched the county agency’s payment data to its supporting
       documentation for foster care maintenance payments;

      selected a stratified random sample of 100 relative homes;

      reviewed case file documentation for the sampled homes, including, but not limited to,
       social worker reports to the Los Angeles County juvenile court, service logs and notes,
       criminal background checks and clearances, and “Child Placement Needs Assessment”
       documents; and

      estimated the total amount and Federal share of improper Title IV-E maintenance
       payments that the State agency claimed for the 11,931 relative homes in our sampling
       frame.

For each of the sampled homes, we determined whether the case file documented that the county
agency had used California foster family home licensing standards to approve the relative home.
We primarily focused on the licensing standards related to the physical environment of the home,
criminal background checks and clearances, and onsite inspection and reassessment of the home.
We also reviewed each case file to determine whether a waiver to the licensing standards had
been granted. If the case file did not contain a waiver or documentation that the licensing
standards had been used to approve the relative home, we questioned the associated payments.
See Appendix A for our sample design and methodology and Appendix B for our sample results
and estimates.




                                                4
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                                FINDING AND RECOMMENDATION

For the period October 1, 2000, through November 30, 2001, the State agency improperly
claimed Federal reimbursement for county agency payments to relative homes that had not been
approved based on State licensing standards. Specifically, for 87 of the 100 relative homes in
our sample, the case files showed that the county agency had not used State licensing standards
in its approval process. For the remaining 13 relative homes, the case file documentation was
either missing or substantially incomplete. As a result, there was no assurance that these homes
had been approved based on State licensing standards.

These deficiencies occurred because the State agency disagreed that the licensing standards used
for nonrelative homes were required to be used for relative homes and had not instructed the
county agency to discontinue claiming payments as of September 28, 2000, for approved relative
homes to which those standards had not been applied. For the 100 sampled relative homes, the
State agency improperly claimed $1,268,450 ($650,324 Federal share) in Title IV-E foster care
maintenance payments. Based on our sample results, we estimated that the State agency
improperly claimed a total of $88,787,673 ($45,520,603 Federal share) for county agency
payments to relative homes. 4

FEDERAL REQUIREMENTS

Pursuant to section 471(a)(10) of the Act, to be eligible for Title IV-E foster care payments, a
State must have a plan approved by the Secretary that “provides for the establishment or
designation of a State authority or authorities which shall be responsible for establishing and
maintaining standards for foster family homes . . . and provides that the standards so established
shall be applied by the State to any foster family home . . . receiving [Title IV-E] funds. . . .”

Section 472(c) of the Act defines a foster family home that is eligible for Federal reimbursement
as “a foster family home for children which is licensed by the State in which it is situated or has
been approved, by the agency of such State . . ., as meeting the standards established for such
licensing. . . .”

Federal regulations (45 CFR § 1355.20(a)) state that approved foster family homes must be held to
the same standards as licensed foster family homes and that anything less than full licensure or full
approval is insufficient for meeting Title IV-E eligibility requirements. The preamble to the final
rule (65 Fed. Reg. 4020, 4032–4033) for 45 CFR § 1355.20 stated:



4
 The $88,787,673 is the lower limit of the 90-percent confidence interval and reflects subsequent county agency
adjustments to the payments.


                                                         5
            Clearly, the statute did not intend that there be separate standards for licensing
            and approval . . . . It also is clear from the language in section 471(a)(10) of the
            Act that the State licensing standards must be applied to “any” foster family home
            that receives funding under titles IV-E or IV-B. The licensing provisions of the
            Act make no exceptions for different categories of foster care providers, including
            relative caretakers. . . .

            We will allow States a grace period to bring homes currently operating with less
            than a full license or full approval to full licensure/approval status. Accordingly,
            if a State is currently claiming title IV-E foster care for a foster family home that
            does not meet fully the State licensing standards, the State has no more than six
            months from the effective date of this final rule to grant a full license or approval
            for these homes. After that date, a State may not claim title IV-E funds for any
            child in a home that does not meet the State’s full licensing or approval standards.

In its “Policy Interpretation Question” issued November 21, 1985, ACF stated that, in special
situations, there may be grounds for the State to waive a licensing requirement for a relative
foster parent but that the reason must be documented and the certification of approval must
indicate the applicability to the specific relative child.

CALIFORNIA LICENSING STANDARDS
NOT APPLIED TO RELATIVE HOMES

The case files showed that, in approving 87 of the 100 sampled relative homes, the county
agency did not apply California foster family home licensing standards. Many of the sampled
homes housed children in placement before October 2000. However, as of the end of our audit
period, the county agency still had not approved the 87 relative homes as meeting State licensing
standards as required by section 472(c) of the Act and 45 CFR § 1355.20(a). Our review of the
case files for the 87 homes disclosed that no waivers to the licensing standards had been granted.

For the remaining 13 sampled relative homes, the case file documentation was missing or
substantially incomplete. As a result, there was no assurance that these homes had been
approved based on California licensing standards.

In approving relative homes, the county agency used standards that met the requirements in the
California Welfare and Institutions Code for relative home placements 5 instead of the required
California foster family home licensing standards. Unlike California licensing standards, the
standards used did not require that relative caregivers provide written documentation of their
qualifications, nor did the standards require FBI criminal background checks on relative
caregivers and other adults in the home. The standards used also had no requirements for
bedrooms and sleeping arrangements for children and adults; fixtures, furniture, equipment, and
supplies; safety release devices for security window bars; or periodic reassessments of the
homes.



5
    Sections 361.3 and 361.4 of the California Welfare and Institutions Code.


                                                            6
In addition, the standards used for transportation were less restrictive than California licensing
standards because they did not require that a relative home’s motor vehicle be maintained in a
safe operating condition, that only licensed drivers transport children, or that children over age 4
who weigh more than 40 pounds wear seatbelts. Also, the standards used for storage space were
less restrictive than California licensing standards because they did not require that storage areas
for poisons be locked.

These deficiencies occurred because the State agency disagreed that the licensing standards used
for nonrelative homes were required to be used for relative homes. The State agency relied on
HSC § 1505(k) and CCR § 87007(a)(10), which exempted relative caregivers from the licensing
provisions for foster family homes. In addition, county agency officials stated that California
foster family home licensing standards had not been used to assess relative homes because the
State agency had not required that they be used. Because the State agency disagreed that
California was not in compliance with the Act, the State agency informed counties that they were
to continue following established procedures until the State agency issued new instructions. 6

UNALLOWABLE PAYMENTS CLAIMED FOR RELATIVE HOMES

Because the county agency did not apply California foster family home licensing standards to
relative homes, the State agency claimed $1,268,450 ($650,324 Federal share) in unallowable
Title IV-E foster care maintenance payments for children placed in the 100 sampled homes.
Based on our sample results, we estimated that the State agency improperly claimed a total of
$88,787,673 ($45,520,603 Federal share) for county agency payments to relative homes.

RECOMMENDATION

We recommend that the State agency refund to the Federal Government $45,520,603 in
unallowable foster care payments to relative homes.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency said that it did not believe that any
payments were made in error and that any process concerns that resulted in a lack of
documentation had been corrected. The State agency also commented that its process for
obtaining fingerprint clearances, though not identical to criminal record checks, was substantially
in compliance with Federal laws. Finally, the State agency commented that the recommended
refund was unnecessary from both a policy and fiscal perspective and should be waived.
The State agency’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

During the audit period, the State agency did not comply with Federal law requiring it to apply
the same licensing standards to all foster family homes that receive Title IV-E funding, including

6
 On December 14, 2001, the State agency issued interim licensing standards applicable to both relative and
nonrelative homes and instructed county agencies to use those standards prospectively to approve relative homes.
The interim standards were subsequently codified in the CCR, Title 22, Division 6, chapter 9.5.


                                                        7
relative homes. The DAB’s 2005 decision made it clear that the Act requires States to apply the
same licensing standards to all foster family homes. Even if we had been able to verify that
criminal record checks of relative caregivers took place, the State agency did not apply to
relative homes numerous other California licensing standards, such as those related to sleeping
arrangements. Homes approved based on other standards do not meet the statutory definition of
a “foster family home” and are not eligible for Federal funding. With respect to the State
agency’s requested waiver, we do not have legal authority to waive the refund of unallowable
payments.




                                               8
APPENDIXES
                                                                                    APPENDIX A
                                                                                      Page 1 of 2

                         SAMPLE DESIGN AND METHODOLOGY

POPULATION AND SAMPLING FRAME

The population and sampling frame consisted of 11,931 approved homes in which children had
been placed with caregivers who were relatives (relative homes) and for which one or more
Title IV-E foster care maintenance payments were claimed by the Los Angeles County
Department of Children and Family Services (the county agency) for the period October 1, 2000,
through November 30, 2001. The county agency claimed a total of $104,441,698 in foster care
maintenance payments for the 11,931 relative homes. The California Department of Social
Services (the State agency) claimed these payments for Federal reimbursement.

The population and sampling frame did not include out-of-State relative homes or in-State
relative homes that received only clothing allowance payments. For purposes of the population
and sampling frame, a relative home was a relative caregiver to whom the county agency had
issued a unique caregiver identification number (i.e., vendor identification).

SAMPLE UNIT

The sample unit was a relative home for which the county agency claimed one or more
Title IV-E foster care maintenance payments for the audit period. For each sampled home, we
included all of the federally eligible foster care children in the home during the audit period and
all of the Title IV-E foster care maintenance payments claimed for those children.

SAMPLE DESIGN

We used a stratified random sample consisting of three strata. The total foster care maintenance
payment to the relative home was the basis for stratification.

We calculated the total payment for our audit period by adding all of the foster care payments to
the relative home that were in the Automated Provider Payments System data file. We stratified
the sampling frame as follows:


                                                                                      Percentage
             Range of Payments for            Total              Number of            of Relative
 Stratum         Audit Period               Payments           Relative Homes           Homes
    1             $1–$6,599                  $20,589,882            6,297                 53%
    2           $6,600–$16,799                43,464,118            4,096                 34%
    3          $16,800–$84,299                40,387,698            1,538                 13%
   Total                                    $104,441,698           11,931                100%
                                                                                APPENDIX A
                                                                                  Page 2 of 2

SAMPLE SIZE

We selected a sample of 100 relative homes as follows:

                                   Stratum        Sample Size
                                      1              32
                                      2              31
                                      3              37
                                    Total            100

SOURCE OF RANDOM NUMBERS

Our source of random numbers was the Office of Inspector General, Office of Audit Services
(OIG/OAS), statistical software. We used the single-stage random number generator for our
stratified random sample.

METHOD OF SELECTING SAMPLE ITEMS

We sequentially numbered the relative homes in each stratum. Using the OIG/OAS statistical
software, we generated single-stage random numbers for each stratum based on the sequential
numbers assigned to each stratum. The relative homes selected in the stratum were the ones for
which the sequential numbers matched the random numbers generated.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate (1) the total amount of Title IV-E
maintenance payments that the State agency claimed for relative homes that were not approved
based on State licensing standards and (2) the Federal share of that amount.
                                                                           APPENDIX B


                       SAMPLE RESULTS AND ESTIMATES

TOTAL UNALLOWABLE PAYMENTS CLAIMED

                              Sample Results by Stratum
                                                                   Value of
                    Sample      Value of     No. of Ineligible    Unallowable
      Stratum        Size        Sample      Relative Homes        Payments
         1             32          $95,822          32                  $95,822
         2             31          300,328          31                  300,328
         3             37          872,300          37                  872,300
       Total          100       $1,268,450         100               $1,268,450

                              Estimate of Sample Results
                (Limits Calculated for a 90-Percent Confidence Interval)

                          Point estimate        $94,797,329
                          Lower limit            88,787,673
                          Upper limit           100,806,986


FEDERAL SHARE OF UNALLOWABLE PAYMENTS CLAIMED

                           Sample Results by Stratum
                             Value of                               Value of
                              Sample                               Unallowable
                    Sample   (Federal    No. of Ineligible          Payments
      Stratum        Size     Share)     Relative Homes          (Federal Share)
         1             32       $49,129         32                       $49,129
         2             31       153,967         31                       153,967
         3             37       447,228         37                       447,228
       Total          100      $650,324        100                      $650,324

                              Estimate of Sample Results
                (Limits Calculated for a 90-Percent Confidence Interval)

                          Point estimate        $48,601,472
                          Lower limit            45,520,603
                          Upper limit            51,682,342
APPENDIX C
  Page 1 of 20
APPENDIX C
  Page 2 of 20
APPENDIX C
  Page 3 of 20
APPENDIX C
  Page 4 of 20
APPENDIX C
  Page 5 of 20
APPENDIX C
  Page 6 of 20
APPENDIX C
  Page 7 of 20
APPENDIX C
  Page 8 of 20
APPENDIX C
  Page 9 of 20
APPENDIX C
 Page 10 of 20
APPENDIX C
 Page 11 of 20
APPENDIX C
 Page 12 of 20
APPENDIX C
 Page 13 of 20
APPENDIX C
 Page 14 of 20
APPENDIX C
 Page 15 of 20
APPENDIX C
 Page 16 of 20
APPENDIX C
 Page 17 of 20
APPENDIX C
 Page 18 of 20
APPENDIX C
 Page 19 of 20
APPENDIX C
 Page 20 of 20
